No.

IN THE
SUPREME COURT OF THE UNITED STATES
MARILYN TILLMAN-CONERLY- PETITIONERS
VS.
UNITED STATES OFFICE OF PERSONNEL MANAGEMENT, AND LAVERNE
WATSON - RESPONDENT^)
PROOF OF SERVICE
, do swear or declare that on this date,
lames Conerlv
I,
lulv 30. 2021, as required by Supreme Court Rule 291 have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in die United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
United States Office of Personnel Management
1900 E St.. NW
Washington. DC 20415
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

July 30.2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
MARILYN TILLMAN-CONERLY- PETITIONERS
VS.
UNITED STATES OFFICE OF PERSONNEL MANAGEMENT, AND LAVERNE
WATSON - RESPONDENT(S)
PROOF OF SERVICE
, do swear or declare that on this date,
lames Conerlv
I,
lulv 30. 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on eadi party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Laveme Watson
1900 E St. NW
Washington. DC 20415
I declare under penalty ofperjury that the foregoing is true and correct.
Executed on

July 30.2021

(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES
MARILYN TILLMAN-CONERLY- PETITIONERS
VS.
UNITED STATES OFFICE OF PERSONNEL MANAGEMENT, AND LAVERNE
WATSON - RESPONDENT^)

PROOF OF SERVICE
, do swear or declare that on this date,
lames Conerlv
I,
lulv 30. 2021, as required by Supreme Court Rule 29 I have served the enclosed PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Attorney General U.S.
US Dept of Justice______
9SQ Pennsylvania Ave. NW
Washington. DC 20530
I declare under penalty ofperjury that the foregoing is true and correct.
Executed on

July 30.2021
7s

(Signature)

